Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




       REVIEW OF LOUISIANA
     MEDICAID PERSONAL CARE
      SERVICES PROVIDED BY
      IMMACULATE HEART OF
            MARY-PCS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                  Patricia Wheeler
                                             Regional Inspector General

                                                    January 2013
                                                    A-06-09-00106
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Louisiana, the Department of Health and
Hospitals, Bureau of Health Services Financing (the State agency), is responsible for
administering the Medicaid program.

Pursuant to 42 CFR § 440.167, personal care services may be provided to individuals who are
not inpatients at a hospital or residents of a nursing facility, an intermediate care facility for
individuals with intellectual disabilities, or an institution for mental disease. The services must
be (1) authorized by a physician or, at the State agency’s option, otherwise authorized in
accordance with a service plan approved by the State agency; (2) provided by an employee who
is qualified to provide such services and who is not the recipient’s legally responsible relative;
and (3) furnished in a home or, at the State agency’s option, at another location. Examples of
personal care services include, but are not limited to, cleaning, shopping, grooming, and bathing.

The State agency reported to CMS personal care services expenditures of approximately $472
million ($348 million Federal share) during the period October 1, 2006, through March 31, 2009.
Of that amount, Immaculate Heart of Mary-PCS (Immaculate), a personal care services provider
in Melville, Louisiana, received $8,123,591 ($5,971,657 Federal share).

OBJECTIVE

Our objective was to determine whether the State agency ensured that Immaculate’s claims for
Federal reimbursement of Medicaid personal care services complied with Federal and State
requirements.

SUMMARY OF FINDINGS

The State agency did not always ensure that Immaculate’s claims for Federal reimbursement of
Medicaid personal care services complied with Federal and State requirements. Of the 100
sampled claims, 28 complied with requirements but 72 did not. Some claims had multiple
deficiencies.

    •   Services included in 26 claims were unallowable or partially unallowable because they
        were provided by employees who did not meet the State’s minimum training
        requirements as of the dates of service (17 claims) or did not meet the minimum
        education and experience requirements (8 claims) or because Immaculate did not have
        sufficient documentation to support the number of units claimed (4 claims). As a result,



                                                 i
        Immaculate received an overpayment of $3,476 ($2,506 Federal share) for these 26
        claims.

   •   Services included in 46 claims were provided by employees who did not complete the
       training requirements in the time period State regulations required. However, these
       employees obtained the required minimum hours of training before they provided the
       services. As such, we did not include these claims in our estimate of overpayments.

These deficiencies occurred because (1) Immaculate did not follow all of the State agency’s
employee qualification requirements, (2) Immaculate did not ensure that units claimed were
properly supported, and (3) the State agency did not effectively monitor its personal care services
providers for compliance with the State agency’s requirements.

Based on our sample, we estimated that Immaculate improperly claimed at least $820,096
(Federal share) of unallowable reimbursement for personal care services during the period
October 1, 2006, through March 31, 2009.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government the estimated $820,096 (Federal share) paid to
       Immaculate for unallowable personal care services,

   •   ensure that personal care services providers implement controls to ensure that their
       employees meet all of the State agency’s applicable employee training requirements,

   •   ensure that personal care services providers properly support the number of units
       claimed, and

   •   ensure that its personal care services providers understand employee training
       requirements and improve its monitoring of personal care services providers to identify
       issues of noncompliance with training requirements.

IMMACULATE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, Immaculate did not comment on the validity of our
findings, nor did it provide any additional information that would lead us to change our findings
or recommendations.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our
recommendations. The State agency said that it has implemented corrective actions, including a
revision of its training requirements.



                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Louisiana’s Personal Care Services Program ......................................................1
              Federal and State Requirements...........................................................................1
              Personal Care Services Expenditures...................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          EMPLOYEE QUALIFICATION DEFICIENCIES ........................................................4
              State Requirements ..............................................................................................4
              Requirements Not Met by the Claimed Dates of Service ....................................5
              Requirements Not Met in the Required Time Period ..........................................5

          OTHER DEFICIENCIES ................................................................................................6
               Unsupported Units Claimed.................................................................................6

          CAUSES OF DEFICIENCIES ........................................................................................6

          EFFECT OF DEFICIENCIES THAT RESULTED IN OVERPAYMENTS .................6

          RECOMMENDATIONS .................................................................................................6

IMMACULATE COMMENTS AND OFFICE OF INSPECTOR GENERAL
    RESPONSE ....................................................................................................................6

STATE AGENCY COMMENTS .............................................................................................7

OTHER MATTERS ..................................................................................................................7

          Time Conflicts Between Employee Timesheets and Training ........................................7
          Courtesy Call Conflicts ....................................................................................................7

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY




                                                                    iii
B: SAMPLE RESULTS AND ESTIMATES

C: REASONS FOR DEFICIENT CLAIM LINES

D: IMMACULATE HEART OF MARY-PCS, LLC, COMMENTS

E: STATE AGENCY COMMENTS




                            iv
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Louisiana, the Department of Health and
Hospitals, Bureau of Health Services Financing (the State agency), is responsible for
administering the Medicaid program.

Louisiana’s Personal Care Services Program

Louisiana’s personal care services program 1 provides limited assistance to recipients whose
personal care needs would otherwise require that they be placed in a nursing facility rather than
remain in their homes. Personal care services must be authorized in advance and provided in
accordance with an approved plan of care and supporting documentation. The State agency
contracts with a third-party assessor to perform an in-home assessment for each recipient to
determine the types and amounts of care needed and develop a personal care services plan.
Examples of personal care services include, but are not limited to, cleaning, shopping, grooming,
and bathing.

Federal and State Requirements

Pursuant to section 1905(a)(24) of the Act and implementing Federal regulations (42 CFR §
440.167), personal care services may be provided to individuals who are not inpatients at a
hospital or residents of a nursing facility, an intermediate care facility for individuals with
intellectual disabilities, 2 or an institution for mental disease. The services must be (1) authorized
for an individual by a physician or, at the State agency’s option, otherwise authorized in
accordance with a service plan approved by the State agency; (2) provided by an employee who
is qualified to provide such services and who is not a member of the individual’s family; and (3)
furnished in a home or, at the State agency’s option, at another location.

The Louisiana Medical Assistance Program State Plan, Att. 4.19-B, item 26, states that providers
shall comply with standards for participation established by the State agency.

Louisiana Administrative Code (LAC) Title 50, part XV, section 12909(A)(1), states: “In order

1
  The State Medicaid plan contains two personal care services programs: one for the early periodic screening,
diagnosis, and treatment population; one for long-term personal care services. Our report refers only to long-term
personal care services.
2
 Changes in terminology are based on Rosa’s Law (P.L. No. 111-256). For more information, see CMS Final Rule,
77 Fed. Reg. 29002, 29021, and 29028 (May 16, 2012).


                                                         1
to participate as a Personal Care Services provider in the Medicaid program, an agency must
comply with: (a) state licensing regulations; (b) Medicaid provider enrollment requirements; (c)
the standards of care set forth by the Louisiana Board of Nursing; and (d) the policy and
procedures contained in the Personal Care Services provider manual.” 3 The Manual, chapter 30,
section 30.7, states that a separate service log must be kept for each recipient and that
reimbursement is payable only for services documented in the service log.

LAC Title 50, part XV, section 12911(F), requires that personal care services employees (1)
receive a minimum of 8 hours of orientation within 1 week of employment, (2) receive training
in cardiopulmonary resuscitation (CPR) and basic first aid within 1 week of employment, (3)
receive a minimum of 16 hours of training within 30 days of employment, and (4) satisfactorily
complete a minimum of 20 hours of annual training related to providing personal care services.

LAC Title 50, part XV, sections 12911(A) and (B)(2), require that personal care services
agencies participating in the Medicaid program ensure that all staff providing direct care to
recipients meet the qualifications for furnishing personal care services. All personal care
services employees must have one of the following minimum education and experience
qualifications: (1) a high school diploma or general equivalency diploma (GED), (2) a trade
school diploma in the area of human services, or (3) documented, verifiable experience
providing personal care services to the elderly and/or persons with disabilities.

Personal Care Services Expenditures

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance costs under Medicaid based on the Federal medical assistance percentage
(FMAP), which varies depending on the State’s relative per capita income. From October 1,
2006, to March 31, 2009, the FMAP for Louisiana ranged from 69.69 percent to 80.01 percent.
The State agency reported to CMS personal care services expenditures of approximately
$472 million ($348 million Federal share) during the period October 1, 2006, through March 31,
2009. Of that amount, Immaculate Heart of Mary-PCS (Immaculate), a personal care services
provider in Melville, Louisiana, received $8,123,591 ($5,971,657 Federal share).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency ensured that Immaculate’s claims for
Federal reimbursement of Medicaid personal care services complied with Federal and State
requirements.

Scope

This audit covered the $8,123,591 the State agency paid to Immaculate for 77,097 claim lines
(hereafter referred to as “claims”) paid for the period October 1, 2006, through March 31, 2009.

3
    The State agency established all of the LAC provisions cited in this report.



                                                             2
We limited our review of internal controls to the State agency’s oversight of personal care
services providers and Immaculate’s procedures for maintaining documentation related to
employees and recipients.

We conducted our fieldwork at the State agency office in Baton Rouge, Louisiana, the third-
party assessor’s office in Baton Rouge, Louisiana, and Immaculate’s office in Melville,
Louisiana.

Methodology

To accomplish our objective, we:

       •   reviewed Federal and State requirements for the personal care services program;

       •   interviewed State agency and third-party assessor officials to gain an understanding
           of the personal care services program;

       •   obtained from the Medicaid Management Information System fiscal agent claims data
           for personal care services that were paid from October 1, 2006, through March 31,
           2009, and reconciled the totals to the amounts claimed during the same period on the
           Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
           Assistance Program;

       •   selected Immaculate to review based on payments for personal care services claims it
           received totaling $8,123,591 for the audit period;

       •   selected a random sample of 100 Immaculate claims (Appendix A);

       •   met with Immaculate officials to gain an understanding of Immaculate’s policies and
           procedures and of documentation in Immaculate’s recipient and employee personnel
           files;

       •   identified the employee(s) included in each sampled claim and obtained
           documentation Immaculate maintained in the identified employee personnel files;

       •   evaluated the documentation obtained for each sample claim to determine whether it
           complied with Federal and State Medicaid requirements;

       •   discussed the results of our audit with officials from the State agency and
           Immaculate; and

       •   estimated the unallowable Federal Medicaid reimbursement paid for the 77,097
           claims (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain


                                                3
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not always ensure that Immaculate’s claims for Federal reimbursement of
Medicaid personal care services complied with Federal and State requirements. Of the 100
sampled claims, 28 claims complied with requirements but 72 did not. Some claims had
multiple deficiencies.

    •   Services included in 26 claims were unallowable or partially unallowable because they
        were provided by employees who did not meet the State’s minimum training
        requirements as of the dates of service (17 claims) or did not meet the minimum
        education and experience requirements (8 claims) or because Immaculate did not have
        sufficient documentation to support the number of units claimed (4 claims). As a result,
        Immaculate received an overpayment of $3,476 ($2,506 Federal share) for these 26
        claims.

   •    Services included in 46 claims were provided by employees who did not complete the
        training requirements in the time period required by State regulations. However, these
        employees obtained the required minimum hours of training before they provided the
        services. As such, we did not include these claims in our estimate of overpayments.

These deficiencies occurred because (1) Immaculate did not follow all of the State agency’s
employee qualification requirements, (2) Immaculate did not ensure that units claimed were
properly supported, and (3) the State agency did not effectively monitor its personal care services
providers for compliance with the State agency’s requirements.

See Appendix C for details of the deficiencies identified by sample claim.

Based on our sample, we estimated that Immaculate improperly claimed at least $820,096
(Federal share) of unallowable reimbursement for personal care services during the period
October 1, 2006, through March 31, 2009.

EMPLOYEE QUALIFICATION DEFICIENCIES

State Requirements

LAC Title 50, part XV, section 12909(B)(4), requires that a Medicaid-enrolled agency ensure
that employees are qualified to provide personal care services and ensure that employees
satisfactorily complete an orientation and training program in the first 30 days of employment.

LAC Title 50, part XV, sections 12911(F)(1)(3) and (4), require that personal care services
employees complete a minimum of 8 hours of orientation within 1 week of employment,
complete a minimum of 16 hours of training within 30 days of employment, and satisfactorily


                                                4
complete a minimum of 20 hours of annual training related to providing personal care services.
In addition, LAC Title 50, part XV, section 12911(F)(2), requires that new personal care services
employees receive training in CPR and basic first aid within 1 week of employment.

LAC Title 50, part XV, sections 12911(A) and (B)(2), require that personal care services
agencies participating in the Medicaid program ensure that all employees providing personal care
services meet the appropriate qualifications. All personal care services workers must have one
of the following minimum education and experience qualifications: (1) a high school diploma or
GED, (2) a trade school diploma in the area of human services, or (3) documented, verifiable
experience providing personal care services to the elderly and/or persons with disabilities.

Requirements Not Met by the Claimed Dates of Service

Of the 72 claims that did not comply with requirements, 22 were provided by employees who did
not meet the minimum training or education and experience requirements. Some claims had
multiple deficiencies. Specifically, for these 22 claims, the employees did not obtain:

   •   the minimum education and experience qualifications (8 claims),

   •   CPR certification (7 claims),

   •   first aid certification (6 claims),

   •   orientation training (5 claims),

   •   the minimum number of initial training hours (5 claims), or

   •   the minimum number of annual training hours (4 claims).

Requirements Not Met in the Required Time Period

Of the 72 claims that did not comply with requirements, services included in 46 claims were
provided by employees who did not complete training within the time period the State required.
Some of these claims had multiple deficiencies. Specifically, the employees did not obtain:

   •   first aid certifications within 1 week of employment (44 claims),

   •   CPR certifications within 1 week of employment (42 claims),

   •   the minimum number of initial training hours within 30 days of employment (6 claims),
       or

   •   the minimum number of orientation hours within 1 week of employment (2 claims).




                                                5
OTHER DEFICIENCIES

Unsupported Units Claimed

Of the 72 claims that did not comply with requirements, 4 did not support the units claimed for
employee services. Specifically, the number of units on employee timesheets was less than the
number of units claimed.

CAUSES OF DEFICIENCIES

These deficiencies occurred because (1) Immaculate did not follow all of the State agency’s
employee qualification requirements, (2) Immaculate did not ensure that units claimed were
properly supported, and (3) the State agency did not effectively monitor its personal care services
providers for compliance with the State agency’s requirements.

EFFECT OF DEFICIENCIES THAT RESULTED IN OVERPAYMENTS

Based on our sample, we estimated that Immaculate received at least $820,096 (Federal share) of
unallowable reimbursement for personal care services (Appendix B).

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government the estimated $820,096 (Federal share) paid to
       Immaculate for unallowable personal care services,

   •   ensure that personal care services providers implement controls to ensure that their
       employees meet all of the State agency’s applicable employee training requirements,

   •   ensure that personal care services providers properly support the number of units
       claimed, and

   •   ensure that its personal care services providers understand employee training
       requirements and improve its monitoring of personal care services providers to identify
       issues of noncompliance with training requirements.

IMMACULATE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, Immaculate stated that it had requested, but was not
granted, the amount of time it requested to respond to the draft report and thus was unable to
provide a detailed response to our claims. Immaculate added that it is not agreeing to the validity
of our findings or admitting that the findings are correct, and reserves the right to respond further
to our agency or to the State should a determination be made that a recoupment of funds is due.
Immaculate’s comments are included in their entirety as Appendix D.



                                                 6
Immaculate requested and was granted an extension to respond to our draft report on two
separate occasions. In addition to the 30-day period required by our policies and procedures for
responding to draft reports, we granted Immaculate 6 additional weeks. Immaculate did not
provide any additional information that would lead us to change our findings or
recommendations.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our
recommendations. The State agency said that it has implemented corrective actions, including a
revision of its training requirements. The State agency’s comments are included in their entirety
as Appendix E.

                                     OTHER MATTERS

Time Conflicts Between Employee Timesheets and Training

In addition to our statistical sample, we judgmentally selected 31 employee timesheets and
training records to review for time conflicts. We found that 21 employees claimed on their
timesheets that they were working with recipients while, according to their individual training
records, the employees were attending training classes. The time conflicts ranged from 1
occurrence for 3 employees to 11 occurrences for 2 employees. In addition, the overlap in time
ranged from 1 hour for 14 occurrences to 8 hours for 1 occurrence.

Courtesy Call Conflicts

In reviewing documentation related to the 100 claims in our sample, we noticed that the provider
had called the recipient to monitor the care being provided. Several of the call documents noted
that the employee was not with the recipient at the time of the call. We judgmentally selected 53
call documents showing that the employee was not with the recipient at the time of the call and
checked the employees’ corresponding timesheets. Thirty-three of the timesheets showed that
the employees were with the recipient at the time of the call.




                                                7
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicaid claim lines submitted by the Louisiana Department of
Health and Hospitals for personal care services provided by Immaculate Heart of Mary-PCS
(Immaculate) and paid during the period October 1, 2006, through March 31, 2009.

SAMPLING FRAME

The sampling frame consisted of 77,097 personal care services claim lines totaling $8,123,591
for the period October 1, 2006, through March 31, 2009.

SAMPLE UNIT

The sample unit was a personal care services claim line for which the State reimbursed
Immaculate.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claim lines.

SOURCE OF RANDOM NUMBERS

We used Office of Inspector General, Office of Audit Services, statistical software to generate
the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 77,097. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used Office of Inspector General, Office of Audit Services, statistical software to estimate the
total value of overpayments.
              APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                   Sample Results

                                                       No. of       Value of
           Value of                  Value of        Sampled        Sampled
Sampling    Frame                     Sample        Claim Lines Deficient Claim
 Frame     (Federal     Sample       (Federal          With           Lines
  Size      Share)       Size         Share)        Deficiencies (Federal Share)

 77,097    $5,971,657     100             $8,242        26           $2,506


                         Estimated Value of Overpayments
               (Limits Calculated for a 90-Percent Confidence Interval)
                                   (Federal Share)

                         Point estimate            $1,932,005
                         Lower limit               $820,096
                         Upper limit               $3,043,913
                                                                                                            Page 1 of 3


                             APPENDIX C: REASONS FOR DEFICIENT CLAIM LINES

           Requirements Not Met by the Claimed Dates of Service
        1 Orientation hours (8 hours)
        2 Minimum number of initial training hours (16 hours)
        3 Annual training (20 hours)
        4 CPR certification
        5 First aid certification
        6 Minimum education and experience qualifications
           Unsupported Units Claimed
        7 Unsupported units of payment for claimed dates of service
           Training Requirements Not Met in the Required Time Period
        8 CPR certification
        9 First aid certification
        10 Orientation hours (8 hours)
        11 Initial training (16 hours)


                                                                                                   No. of        Sample Item
  No.       1     2      3      4      5      6      7       8        9       10       11        Deficiencies       No. 1
1                 X      X                                                                            2               1
2                                                            X        X                               2               2
3                                                            X        X                               2               3
4                                                                     X                               1               4
5                               X      X      X                                                       3               5
6                 X                                                                                   1               8
7                                                            X        X                               2              10
8                                                            X        X                               2              11
9                                                                                       X             1              13
10                                                   X                                                1              14
11          X                                                                                         1              16
12                                                           X        X                               2              20
13                                                           X        X                               2              21
14                                                           X        X                               2              22
15                                                           X        X                               2              23
16          X                   X      X                                                              3              24
17                                                           X        X                               2              25
18                                                           X        X                               2              26
19                                                           X        X                               2              27
20          X                   X      X                                                              3              29
21                                                           X        X                               2              30
22                                                           X        X                               2              31
23                                                                                      X             1              32

        1
            We include the “Sample Item No.” column as a cross-reference to the specific sample item.
                                                                Page 2 of 3



                                                       No. of        Sample Item
 No.   1   2   3   4   5   6   7   8   9   10   11   Deficiencies       No. 1
24                 X                                      1              33
25                                 X   X                  2              34
26                                 X   X                  2              36
27                                 X   X   X    X         4              38
28             X           X                              2              39
29                                 X   X                  2              41
30                                 X   X        X         3              42
31                                 X   X                  2              43
32                                 X   X                  2              44
33                                 X   X                  2              45
34                                 X   X                  2              46
35                         X                              1              47
36     X       X                                          2              48
37                         X                              1              50
38                 X   X                                  2              51
39                                 X   X                  2              52
40                                 X   X                  2              53
41                                 X   X        X         3              54
42         X                                              1              55
43                 X   X                                  2              58
44         X                                              1              59
45                                 X   X                  2              61
46                 X   X                                  2              62
47                                 X   X   X              3              63
48                             X                          1              64
49                                 X   X                  2              66
50                                 X   X                  2              67
51                                 X   X                  2              69
52                             X                          1              71
53                                 X   X                  2              72
54             X           X                              2              73
55                             X                          1              74
56                         X                              1              75
57                                     X                  1              79
58                                 X   X                  2              80
59                                 X   X                  2              82
60                                 X   X        X         3              83
61                                 X   X                  2              84
62                         X                              1              87
63         X                                              1              88
64                                 X   X                  2              89
65                                 X   X                  2              90
                                                                   Page 3 of 3



                                                          No. of        Sample Item
 No.    1   2   3   4   5   6   7   8    9    10   11   Deficiencies       No. 1
66                                  X    X                   2              91
67                                  X    X                   2              92
68                                  X    X                   2              93
69      X                                                    1              94
70                          X                                1              95
71                                  X    X                   2              98
72                                  X    X                   2             100
Total   5   5   4   7   6   8   4   42   44   2    6        133
APPENDIX D: IMMACULATE HEART OF MARY-PCS, LLC, COMMENTS
